   Federal Labor Relations Authority
   OFFICE OF INSPECTOR GENERAL




      51ST SEMIANNUAL REPORT TO CONGRESS

               OCTOBER 1, 2013 – MARCH 31, 2014



1400 K Street N.W., Suite 250, Washington, DC 20424
TABLE OF CONTENTS


Contents
Executive Summary ______________________________________________________________________________________ 1
  Audits and Evaluations Highlights____________________________________________________________________ 1
  Investigations Highlight _______________________________________________________________________________ 1
  Other Activities Highlights ____________________________________________________________________________ 2
  Looking Ahead _________________________________________________________________________________________ 2
Federal Labor Relations Authority Overview __________________________________________________________ 3
  Mission _________________________________________________________________________________________________ 3
  Organization ___________________________________________________________________________________________ 3
Office of Inspector General ______________________________________________________________________________ 5
Office of Inspector General Activities ___________________________________________________________________ 6
  Audits and Evaluations ________________________________________________________________________________ 6
  Investigations __________________________________________________________________________________________ 8
  Other Activities ________________________________________________________________________________________ 9
Reporting Requirements of the Inspector General Act of 1978, as Amended _____________________ 11
First Half of FY 2014 Freedom of Information Act Requests ________________________________________ 12
Table 1. Summary of Audit Reports with Corrective Actions Outstanding for More Than 1 Year 13
Table 2. List of Audit Reports Issued __________________________________________________________________ 14
Table 3. Reports with Questioned Costs ______________________________________________________________ 15
Table 4. Recommendations that Funds Be Put to Better Use ________________________________________ 16
Appendix A. Acronyms and Abbreviations ___________________________________________________________ 17
Appendix B. Definitions of Terms Used _______________________________________________________________ 18
Contacting the Office of the Inspector General _______________________________________________________ 19
EXECUTIVE SUMMARY


Executive Summary
This Semiannual Report, submitted pursuant to Section 5 of the Inspector General Act of 1978, as
amended, summarizes the major activities and accomplishments of the Federal Labor Relations
Authority (FLRA) Office of Inspector General (OIG) for the period October 1, 2013 to March 31,
2014. The most significant activities of the OIG during the first half of Fiscal Year (FY) 2014 are
noted below. Additional details pertaining to each activity can be found in subsequent sections of
this report.


AUDITS AND EVALUATIONS HIGHLIGHTS
During this reporting period, the OIG issued four reports, the annual Financial Statement Audit of
the Federal Labor Relations Authority for Fiscal Year 2013 (AR-14-01); an Evaluation of the
Federal Labor Relations Authority Compliance with the Federal Information Security Management
Act for Fiscal Year 2013 (ER-14-01); the Audit of the Federal Labor Relations Authority FY 2013
Charge Card Program (AR-14-03); and the Federal Labor Relations Authority’s Compliance with
the Improper Payments Elimination and Recovery Act of 2010 (ER-14-02).

The OIG contracted with Dembo, Jones, Healy, Pennington & Marshall, P.C. (DJHPM) to audit the
FLRA Financial Statements for FY 2013. DJHPM expressed an unqualified opinion. Also, the OIG
issued a Management Letter (AR-14-02) in connection with the financial statement audit.

In addition, the OIG issued an evaluation report on the FLRA’s compliance with the Federal
Information Security Management Act (ER-14-01). The evaluation revealed that FLRA has taken
steps to improve the information security program by closing 1 out of the 6 prior year issues. This
year’s testing resulted in no new findings.

DJHPM under contract with the OIG completed an Audit of the Federal Labor Relations Authority
FY 2013 Charge Card Program (AR-14-03). The auditors found that FLRA needs to strengthen
internal controls over the travel and purchase card programs. They also found that policies and
procedures were applied inconsistently.

The OIG determined that the FLRA is compliant with the Improper Payments Elimination and
Recovery Act of 2010 (AER-14-02) and applicable guidance.


INVESTIGATIONS HIGHLIGHT
The FLRA Inspector General received 35 complaints and 2 Freedom of Information Act requests.
Of the 35 complaints received, the OIG resolved 26 of the complaints, referred 2 to other OIGs, and
forwarded 7 to other FLRA offices. The OIG closed one investigation (IR-14-01).



Page 1
EXECUTIVE SUMMARY

OTHER ACTIVITY HIGHLIGHTS
The OIG issued the most serious management and performance challenges facing the FLRA.


LOOKING AHEAD
The Corporation for National and Community Service OIG is currently conducting a peer review of
the FLRA OIG.

The OIG plans to initiate the following audit and evaluations during the second half of FY 2014:

   (1) Financial Statement Audit of the Federal Labor Relations Authority for Fiscal year 2014
       (AR-15-01); and
   (2) Evaluation of the Federal Labor Relations Authority’s Compliance with the Federal
       Information Security Management Act Fiscal Year 2014 (ER-15-01)



Dana A. Rooney-Fisher
Inspector General




Page 2
FEDERAL LABOR RELATIONS AUTHORITY OVERVIEW


Federal Labor Relations Authority Overview
MISSION
The mission of the Federal Labor Relations Authority (FLRA) is to carry out the five primary
statutory responsibilities as efficiently as possible and in a manner that gives full effect to the
rights afforded employees and agencies under the Federal Service Labor-Management Relations
Statute (the Statute). Under the Statute, the primary responsibilities (type of cases) of the FLRA
include:

1.   Determining the appropriateness of units for labor organization representation (REP);
2.   Adjudicating exceptions to arbitrator’s awards (ARB);
3.   Resolving complaints of unfair labor practices (ULP);
4.   Resolving bargaining impasses; and
5.   Resolving issues relating to the duty to bargain (NEG).


ORGANIZATION
The FLRA conducts it case processing activities through:

        The Office of the General Counsel (OGC) of the Authority – led by the General Counsel, who
         is appointed by the President and confirmed by the Senate – which, through regional
         offices, is the entry point for ULP charges filed with the FLRA. The OGC also processes REP
         petitions filed with the FLRA and decides appeals of Regional Directors’ decisions
         dismissing ULP charges.
        The Office of Administrative Law Judges is the office in which judges appointed by the
         Authority conduct administrative hearings and issue recommended decisions in cases
         involving alleged ULPs and issue decisions involving applications for attorney fees under
         the Back Pay Act or the Equal Access to Justice Act.
        The Authority is a quasi-judicial body (with three full-time Members --one of which serves
         as the FLRA Chairman-- appointed by the President and confirmed by the Senate), that
         resolves appeals in ULP and REP cases and adjudicates exceptions to ARB awards and NEG
         appeals.
        The Federal Service Impasses Panel, which consists of up to seven part-time members
         appointed by the President (without Senate confirmation), resolves impasses between
         Federal agencies and unions representing Federal employees under the Statute and the
         Federal Employees Flexible and Compressed Work Schedules Act.
        The FLRA also provides full staff support to two other entities: the Foreign Service
         Impasse Disputes Panel and the Foreign Service Labor Relations Board (FSLRB).




Page 3
FEDERAL LABOR RELATIONS AUTHORITY OVERVIEW

The Chairman is the head of the Agency and also serves as FLRA’s Chief Executive and
Administrative Officer, overseeing all agency-wide administrative functions.

In carrying out statutory responsibilities, the Chairman oversees the following offices:

        The Office of the Executive Director, which provides agency-wide operational support
         through the following divisions: Budget and Finance, Administrative Services, and
         Information Resources Management.
        The Office of the Solicitor, which represents the agency in court proceedings before all
         United States Courts and provides the Chairman legal advice on various legal issues.
        The Office of Human Resources, which is responsible for providing agency-wide Human
         Resource services, and leading human capital management efforts pursuant to the FLRA
         Strategic Plan.


                             Figure 1. Federal Labor Relations Authority Organization Chart
                                                                 AUTHORITY
                                                                CHAIRMAN AND
                                                                    CHIEF
                                                                  EXECUTIVE
                                                                   OFFICER




          FOREIGN                                                                                                          GENERAL
          SERVICE               FOREIGN               FEDERAL                OFFICE OF THE           AUTHORITY
                                                                                                                           COUNSEL
           LABOR                SERVICE               SERVICE                 INSPECTOR              MEMBERS
         RELATIONS              IMPASSE              IMPASSES                  GENERAL                  (2)
           BOARD            DISPUTES PANEL             PANEL




                                                                                                                           REGIONAL
                                                                                                 CHIEF COUNSELS
                                                                                                  (ONE TO EACH              OFFICES
                                                                                                    MEMBER)                   (7)
                                                                                                     & STAFF




                        EQUAL              OFFICE OF THE         OFFICE OF THE       OFFICE OF THE         CHIEF COUNSEL
                     EMPLOYMENT             EXECUTIVE           ADMINISTRATIVE        SOLICITOR                TO THE
                     OPPORTUNITY             DIRECTOR             LAW JUDGES                                 CHAIRMAN
                      PROGRAM




                                                                                                 OFFICE OF CASE      COLLABORATION
         ADMINISTRATIVE            BUDGET AND
                                                      INFORMATION              HUMAN                 INTAKE                AND
           SERVICES                  FINANCE
                                                       RESOURCES             RESOURCES                 AND            ALTERNATIVE
            DIVISION                 DIVISION
                                                      MANAGEMENT              DIVISION            PUBLICATION            DISPUTE
                                                         DIVISION                                    OFFICE            RESOLUTION
                                                                                                                         OFFICE




Page 4
OFFICE OF INSPECTOR GENERAL


Office of Inspector General
The Inspector General Act of 1978, as amended (hereafter referred to as the IG Act), requires the
FLRA and other small agencies to establish an OIG. FLRA is a designated Federal entity under the
IG Act of 1978, as amended. The Dodd-Frank Wall Street Reform and Consumer Protection Act
(P.L. 111-203) altered the relationship of the designated Federal entity Offices of Inspectors
General with the agency head by establishing that the term “head of the designated Federal entity”
for FLRA “means the members of the Authority.” In accordance with the Dodd-Frank Act, we
submit this report to the Chairman and Authority Members.

The FLRA OIG is responsible for:

1. conducting and supervising audits and investigations relating to FLRA programs and
   operations;
2. reviewing legislation;
3. recommending policies designed to promote economy, efficiency, and effectiveness of the
   establishment; and
4. keeping the Chairman, Authority Members, and Congress fully and currently informed about
   problems and deficiencies, as well as the necessity for corrective actions.

To aid the OIG in accomplishing its mission, the OIG was provided an administrative assistant.


                      Figure 2. FLRA Office of Inspector General Organization Chart




                                                INSPECTOR
                                                 GENERAL




                                                                     OPERATIONAL SUPPORT
                      ADMINISTRATIVE
                                                                     - COUNSEL TO THE IG
                        ASSISTANT
                                                                     - CONTRACTOR




Page 5
OFFICE OF INSPECTOR GENERAL ACTIVITIES


Office of Inspector General Activities
AUDITS AND EVALUATIONS
In accordance with the IG Act, the FLRA OIG conducts, supervises and coordinates audits and
evaluations relating to the programs and operations of the FLRA.

Completed Audits and Evaluations
•   Financial Statement Audit of the Federal Labor Relations Authority for Fiscal Year 2013 (AR-
    14-01)
         The Accountability of Tax Dollars Act of 2002 Public Law 107-289 requires the FLRA OIG
         or an independent external auditor, as determined by the IG, to prepare and submit to
         Congress and the Director of the Office of Management and Budget, audited financial
         statements.
         Under a contract monitored by the OIG, Dembo, Jones, Healy, Pennington & Marshall, P.C.
         (DJHPM) an independent certified public accounting firm, performed an audit of the
         financial statements of FLRA as of September 30, 2013, and the related statements of net
         cost and changes in net position, and the statements of budgetary resources. DJHPM
         expressed an unqualified opinion on FLRA’s financial statements and reported that they
         presented fairly, in all material respects, the financial position of FLRA as of September 30,
         2013.
         DJHPM was not contracted for and did not provide an opinion on the effectiveness of
         FLRA’s internal controls. However, DJHPM did state that they did not identify any
         deficiencies in internal controls over financial reporting that were considered to be
         material weaknesses or significant deficiencies.
•   Management Letter for Fiscal Year 2013 Audit of the Federal Labor Relations Authority
    Financial Statements (AR-14-02)
         DJHPM, under contract with the OIG, audited FLRA’s balance sheet as of September 30,
         2013. DJHPM also examined FLRA’s internal controls over financial reporting and
         identified other operational matters, which resulted in a closing one of the three prior year
         observations. The two remaining financial management comment observations did not
         reach the level required to be reported as significant deficiencies or material weaknesses
         in our Financial Statement Audit Report of the FLRA for FY 2013.




Page 6
OFFICE OF INSPECTOR GENERAL ACTIVITIES

•   Evaluation of the Federal Labor Relations Authority Compliance with the Federal Information
    Security Management Act Fiscal Year 2013 (ER-14-01)
         The E-Government Act of 2002 (P.L. 107-347), commonly referred to as FISMA, requires
         Federal agencies to develop, document, and implement an agency-wide information
         security program that provides security for the information and information systems that
         support the operations and assets of the agency. FISMA assigns specific responsibilities to
         agency heads and IGs.
         FISMA requires agencies to have an annual independent evaluation performed on their
         information security programs and practices and to report the evaluation results to OMB.
         FISMA states that the independent evaluation is to be performed by the agency IG or an
         independent external auditor as determined by the IG.
         DJHPM, on behalf of the OIG, conducted an independent evaluation of FLRA’s compliance
         with FISMA for FY 2013 using guidelines established by FISMA, OMB, and the National
         Institute of Standards and Technology. A report was issued November 14, 2013. During
         the FY 2013 FISMA evaluation DJHPM performed a test on controls and a Vulnerability
         Assessment on the FLRA network. This year’s testing resulted in no new findings.
         The report also includes a follow up of 6 prior year issues. Each of those issues has many
         elements that make up each finding. If any one of the elements is open, then that issue
         remains open. Five issues remain open.
•   Audit of Controls over Government Purchase and Travel Card Programs Fiscal Year 2013 (AR-
    14-03)
         The Government Charge Card Abuse Act of 2012 (Charge Card Act), Public Law 112-194,
         requires Inspectors General to conduct periodic risk assessments (at least annually) of
         agency purchase cards (including convenience checks), combined integrated card
         programs and travel card programs to analyze the risks of illegal, improper, or erroneous
         purchases.
         DJHPM, under contract with the OIG completed an audit of the Federal Labor Relations
         Authority FY 2013 Charge Card Program. A report was issued on February 24, 2014.
         DJHPM performed a risk assessment and reviewed a sample of purchase transactions. The
         review identified six deficiencies in the following areas: (1) Lack of Policy and Procedures
         for Purchase Cards; (2) Noncompliance with Training Policies and Procedures; (3)
         Untimely Payments; (4) Untimely Submission of Travel Vouchers; (5) Outdated Travel Card
         Policies and Procedures; and (6) Lack of Credit Worthiness Assessment New Travel
         Cardholders.




Page 7
OFFICE OF INSPECTOR GENERAL ACTIVITIES

•   Federal Labor Relations Authority’s Compliance with the Improper Payments Elimination and
    Recovery Act of 2010 in the Fiscal Year 2013 Performance and Accountability Report (ER-14-
    02)
         The OIG made a determination that FLRA is compliant with applicable provisions of the
         Improper Payments Elimination and Recovery Act of 2010, in accordance with Sec.3(b) of
         Public Law 111-204, Improper Payments Elimination and Recovery Act of 2010.
•   Management and Performance Challenges
         The Reports Consolidation Act of 2000, Public Law 106-531, requires the IG to provide the
         agency head with a statement that summarizes the most serious management and
         performance challenges facing the agency and briefly assesses the agency’s progress in
         addressing those challenges. On October 23, 2013, we provided the Chairman and
         Authority Members the most serious management and performance challenges facing the
         FLRA along with a brief assessment of management’s progress in addressing them. These
         ongoing challenges included: resource shortages; information technology security; and
         proper handling of records.. The agency has made substantial progress in addressing
         these challenges.

Planned Audits and Evaluations
The OIG plans to initiate the following audit and evaluations during the second half of FY 2014:

•   Financial Statement Audit of the Federal Labor Relations Authority for Fiscal Year 2014 (AR-
    15-01); and
•   Evaluation of the Federal Labor Relations Authority’s Compliance with the Federal
    Information Security Management Act Fiscal Year 2014 (ER-15-01).


INVESTIGATIONS
The FLRA OIG receives and investigates allegations of fraud, waste, abuse and misconduct within
FLRA programs and operations. The FLRA OIG investigations can give rise to administrative, civil
and criminal penalties. Based on investigations conducted, the FLRA IG issues a report that sets
forth the allegations and an objective description of the facts to FLRA management regarding
administrative and civil matters. Investigations which uncover potential criminal activity are
referred to the Department of Justice. As of the end of the semiannual reporting period, the OIG
closed one investigation (IR-14-01).




Page 8
OFFICE OF INSPECTOR GENERAL ACTIVITIES



OIG Hotline
 In order to facilitate reporting of allegations, FLRA OIG maintains a hotline (see “Contacting the
                                                         Office of Inspector General”). Callers who
Figure 4. FLRA OIG Hotline, Complaint Method
                                                          have general questions or concerns that do
                   Complaint Method                       not fall within the OIG’s jurisdiction are
                   0                                      referred to other entities, such as other
                     2                 Hotline Telephone  FLRA offices, Federal agencies and local or
                                       Calls              state governments.
                                    Hotline Emails or    Figure 3. FLRA OIG Hotline, Hotline Disposition
                                    Internet/Intranet
                                    Responses
                                                                            Hotline Disposition
                                    Anonymous
              33
                                    Letters/Contacts


                                                                      7                           OIG Resolved


                                                                 2                                Referred to Other
During the reporting period, we received 35 hotline                                               OIGs
complaints. These hotline complaints were                                                         Forwarded to Other
                                                                                 26
received via the following methods: 2 telephone call                                              FLRA Offices

and 33 email or internet/intranet responses.
Additionally, the OIG resolved 26 of the complaints,
referred 2 to other OIGs, and forwarded 7 to other
FLRA offices.


OTHER ACTIVITIES
Peer Review
Offices of Inspectors General performing audits are required to perform (and undergo) reviews of
other OIG offices on a 3-year cycle. Peer reviews are conducted of an OIG audit organization’s
system of quality control in accordance with the Council of Inspectors General on Integrity and
Efficiency (CIGIE) Guide for Conducting External Peer Reviews of the Audit Organizations of
Federal Offices of Inspector General, based on requirements in the Government Auditing
Standards (Yellow Book). Federal audit organizations can receive a rating of pass, pass with
deficiencies, or fail.

Section 989C of the Dodd-Frank Wall Street and Consumer Protection Act of 2010 contains
additional semiannual reporting requirements pertaining to peer review reports. Federal




Page 9
OFFICE OF INSPECTOR GENERAL ACTIVITIES

Inspectors General are required to engage in peer review processes related to audit operations. In
keeping with Section 989C, our office is reporting the following information related to its peer
review activities. These activities cover our role as both the reviewed, and the reviewing OIG.

Peer Review Planned on FLRA OIG Audit Operations
The Corporation for National and Community Service OIG is scheduled to perform a peer review of
the FLRA’s OIG system of quality control and issue a report in the 2nd half of FY 2014.

Peer Review to be Conducted by FLRA OIG on Other Audit Operations
The FLRA OIG is not currently scheduled to perform a peer review on other audit operations. The
next peer review to be conducted on other audit operations system of quality control is projected
for FY 2015.

Memorandum of Understanding
In accordance with Section 6 of the Inspector General Reform Act of 2008, each Inspector General
shall have his or her own (not reporting to agency management) legal counsel, or obtain the
services of a counsel appointed by and directly reporting to another Inspector General or CIGIE on
a reimbursable basis. The OIG signed a Memorandum of Understanding (MOU) with the
Department of Treasury OIG to provide legal services on a fiscal-year basis.

Regulatory Review
Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the OIG to review
existing and proposed legislation and regulations relating to FLRA programs and operations of
FLRA. During this reporting period the OIG did not review any legislation and regulations relating
to FLRA.

Liaison Activities
The IG is a member of the CIGIE, which was established on October 14, 2008, pursuant to the
Inspector General Reform Act of 2008. Additionally, the FLRA IG is a member of the Inspection
and Evaluation Committee and the Professional Development Committee.




Page 10
REPORTING REQUIREMENTS OF THE INSPECTOR
GENERAL ACT OF 1978, AS AMENDED
Reporting Requirements of the Inspector General Act of
1978, as Amended
The reporting requirements of the Inspector General Act of 1978, as amended, are listed in the
following table along with the location of the required information. The word “None” appears
where there is no data to report under a particular requirement.

 IG ACT OF 1978, AS AMENDED CROSSED REFERENCE

 REFERENCE             REPORTING REQUIREMENT                                               PAGE
 Section4(a)(2)        Review of legislation and regulations                                p.10
 Section 5(a)(1)       Significant problems, abuses, and deficiencies relating to the      None
                       administration of programs and operations
 Section 5(a)(2)       Recommendations with respect to significant problems, abuses or     None
                       deficiencies
 Section 5(a)(3)       Recommendations included in previous semiannual reports on           p.13
                       which corrective action has not been completed (TABLE I)
 Section 5(a)(4)       Matters referred to prosecutive authorities                         None
 Section 5(a)(5)       Summary of reports                                                  None
 Section 5(a)(6)       Listing by subject of audit reports issued (TABLE II)                p.14
 Section 5(a)(7)       Summary of significant reports                                      None
 Section 5(a)(8)       Statistical table – Reports with questioned costs (TABLE III)        p.15
 Section 5(a)(9)       Statistical table – Recommendations that funds be put to better      p.16
                       use (TABLE IV)
 Section 5(a)(10)      Summary of each audit report, inspection report, and evaluation     None
                       report without management decisions
 Section 5(a)(11)      Description and explanation of revised management decision          None
 Section 5(a)(12)      Management decision with which the IG is in disagreement            None
 Section 5(a)(13)      Information under section 05(b) of the Federal Financial            None
                       Management Improvement Act (FFMIA) of 1996
 Section 5(a)(14)      Peer Review Activity                                                  p.9

Table 1. Inspector General Act of 1978, as Amended Crossed Reference




Page 11
FIRST HALF OF FY 2014 FREEDOM OF INFORMATION ACT
REQUESTS
First Half of FY 2014 Freedom of Information Act Requests
 FLRA OIG FOIA ACTIVITIES

 ACTIVITY                                                                                              TOTAL
 Number of Freedom of Information Act (FOIA) Requests Received                                             2
 Number of FOIA Requests Processed                                                                         2
 Number Granted
 Number Partially Granted
 Number Not Granted
 Reasons for Denial
 No Records Available                                                                                          2
 Referred to Other Agencies
 Requests Denied in Full Exemption 3
 Requests Denied in Full Exemption 5
 Requests Denied in Full Exemption 7(A)
 Requests Denied in Full Exemption 7(C)
 Request Withdrawn
 Not a Proper FOIA Request
 Not an Agency Record
 Duplicate Request
 Other
 Requests for OIG Reports from Congress and Other Government Agencies
 Received
 Processed
 Number of OIG Reports/Documents Released in Response to Requests

Table 2. Federal Labor Relations Authority Office of Inspector General Freedom of Information Act Activities




Page 12
TABLE 1. SUMMARY OF AUDIT REPORTS WITH
CORRECTIVE ACTIONS OUTSTANDING FOR MORE THAN
1 YEAR
Table 1. Summary of Audit Reports with Corrective Actions
Outstanding for More Than 1 Year
 OUTSTANDING AUDIT REPORTS AND RECOMMENDATION(S) STATUS

                              REPORT     ISSUE
 REPORT TITLE                 NUMBER     DATE     TOTAL       CLOSED   OPEN
 Report on Evaluation of
                             FY09FISMA    07/09       16          13          3
 FLRA’s FISMA Compliance
 Evaluation of the FLRA
                              ER-12-01    11/11           7        5          2
 Compliance with the FISMA
 Management Letter for
 Fiscal Year 2011 Audit of
                              AR-12-02    12/11           3        1          2
 the FLRA Financial
 Statements




Page 13
  TABLE 2. LIST OF AUDIT REPORTS ISSUED


  Table 2. List of Audit Reports Issued
   ISSUED AUDIT REPORTS

REPORT                                               QUESTIONED   UNSUPPORTED   FUNDS PUT TO
NUMBER      ISSUE DATE   REPORT TITLE                   COST         COST        BETTER USE
                         Financial Statement
                         Audit of the Federal
AR-14-01    12/6/13      Labor Relations                 $0           $0            $0
                         Authority for Fiscal Year
                         2013
                         Management Letter for
                         Fiscal year 2013 Audit
AR-14-02    12/19/13     of the Federal Labor            $0           $0            $0
                         Relations Authority
                         Financial Statements
                         Audit of Controls over
                         Government Purchase
AR-14-03    2/24/14      and Travel Card                 $0           $0            $0
                         Programs Fiscal Year
                         2013
                         Evaluation of the
                         Federal Labor Relations
                         Authority Compliance
ER-14-01    11/14/13     with the Federal                $0           $0            $0
                         Information Security
                         Management Act Fiscal
                         Year 2013
                         Federal Labor Relations
                         Authority Compliance
                         with the Improper
ER-14-02    2/11/14                                      $0           $0            $0
                         Payments Elimination
                         and Recovery Act of
                         2010




  Page 14
TABLE 3. REPORTS WITH QUESTIONED COSTS


Table 3. Reports with Questioned Costs
 QUESTIONED COSTS

                                             NUMBER OF   QUESTIONED   UNSUPPORTED
 DESCRIPTION                                  REPORTS       COST         COST
    A. For which no management
        decision has been made by the            0           $0           $0
        commencement of the reporting
        period.
    B. Which were issued during the              0           $0           $0
        reporting period.
                        Subtotals (A + B)       0           $0            $0
    C. For which a management decision
       was made during the reporting             0           $0           $0
       period.
            i.   Dollar value of
                                                 0           $0           $0
                 disallowed costs; and
           ii.   Dollar value of costs not
                                                 0           $0           $0
                 disallowed.
    D. For which no management
       decision has been made by the             0           $0           $0
       end of the reporting period.
    E. Reports for which no
       management decision was made              0           $0           $0
       within 6 months of issuance.




Page 15
TABLE 4. RECOMMENDATIONS THAT FUNDS BE PUT TO
BETTER USE
Table 4. Recommendations that Funds Be Put to Better Use
 FUNDS TO BE PUT FOR BETTER USE

                                                         NUMBER OF   UNSUPPORTED
 DESCRIPTION                                              REPORTS       COST
      A. For which no management decision has been
         made by the commencement of the reporting           0           $0
         period.
      B. Which were issued during the reporting
                                                             0           $0
         period.
                                     Subtotals (A + B)      0            $0
      C. For which a management decision was made
                                                             0           $0
         during the reporting period.
            i.   Dollar value of recommendations that
                                                             0           $0
                 were agreed to by management; and
           ii.   Dollar value of recommendations that
                                                             0           $0
                 were not agreed to by management.
      D. For which no management decision has been
                                                             0           $0
         made by the end of the reporting period.
      E. Reports for which no management decision
                                                             0           $0
         was made within 6 months of issuance.




Page 16
APPENDIX A. ACRONYMS AND ABBREVIATIONS


Appendix A. Acronyms and Abbreviations
 ACRONYMS/ABBREVIATIONS AND DEFINITIONS

 ACRONYM
 ABBREVIATION   DEFINITION
 ARB            Arbitration (type of FLRA case)
 CIGIE          Council of Inspectors General on Integrity and Efficiency
 DJHPM          Dembo, Jones, Healy, Pennington & Marshall, P.C.
 FFMIA          Federal Financial Management Improvement Act
 FISMA          Federal Information Security Management Act of 2002
 FLRA           Federal Labor Relations Authority
 FOIA           Freedom of Information Act
 FSLRB          Foreign Service Labor Relations Board
 FY             Fiscal Year
 IG             Inspector General
 NEG            Negotiability (Type of FLRA case)
 OGC            Office of the General Counsel
 OIG            Office of Inspector General
 OMB            Office of Management and Budget
 P.L.           Public Law
 REP            Representation (Type of FLRA Case)
 STATUTE        Federal Service Labor-Management Relations Statute
 ULP            Unfair Labor Practice (Type of FLRA case)




Page 17
APPENDIX B. DEFINITIONS OF TERMS USED


Appendix B. Definitions of Terms Used
 TERMS AND DEFINITIONS

 TERM                     DEFINITION
 Disallowed Cost          A questioned cost that management, in a management decision,
                          has sustained or agreed should not be charged to the Government.
 Final Action             The completion of all actions that management has concluded, in
                          its management decision, are necessary with respect to the
                          findings and recommendations. If management concluded that no
                          actions were necessary, final action occurs when management
                          decision is issued.
 Management Decision      An evaluation by management of the findings and
                          recommendations included in an audit report and the issuance of a
                          final decision by management concerning its response to such
                          findings and recommendations, including actions concluded to be
                          necessary.
 Questioned Cost          A cost questioned because of: (a) an alleged violation of a law,
                          regulation, contract, or other agreement or document governing
                          the expenditures of funds; (b) a finding that, at the time of the
                          audit, such cost is not supported by adequate documentation; or
                          (c) a finding that the expenditure of funds for the intended purpose
                          is unnecessary or unreasonable.
 Recommendation That      A recommendation that funds could be used more efficiently if
 Funds Be Put To Better   management took actions to complete the recommendation,
 Use                      including: (a) reduction in outlays; (b) deobligation of funds; (c)
                          costs not incurred by implementing recommended improvements
                          related to the operations of the establishment, a contractor; (d)
                          avoidance of unnecessary expenditures noted in preaward reviews
                          of contract; or (e) any other savings which are specifically
                          identified.
 Unsupported Cost         A cost questioned because, at the time of the audit, such cost is not
                          supported by adequate documentation.




Page 18
CONTACTING THE OFFICE OF THE INSPECTOR GENERAL


Contacting the Office of the Inspector General




If you believe an activity is wasteful, fraudulent, or
        abusive of Federal funds, contact us:


                        Office of Inspector General
                  Mail 1400 K Street N.W., Suite 250,
                              Washington, DC 20424
                                 Tel (800)331-3572
                                 Fax (202)343-1072
                             Email oigmail@flra.gov
               Online Hotline FLRA.gov/oig-hotline
The complainant may remain confidential; allow their name to be used; or anonymous. If the complainant
chooses to remain anonymous, FLRA OIG cannot obtain additional information on the allegation, and also
cannot inform the complainant as to what action FLRA OIG has taken on the complaint. Confidential status
allows further communication between FLRA OIG and the complainant after the original complaint is
received. The identity of complainants is protected under the provisions of the Whistleblower Protection
Act of 1989 and the Inspector General Act of 1978. To learn more about the FLRA OIG, visit our Website at
http://flra.gov/oig




Page 19
